HHS OIG, Audit - "Review of Administrative Costs Claimed Under Title
IV-E of the Social Security Act by Interact Family Services of Indiana for Calendar
Year 2000," (A-05-02-00055)
Department
of Health and Human Services
"Review of Administrative Costs Claimed Under Title IV-E of the Social
Security Act by Interact Family Services of Indiana for Calendar Year 2000,"
(A-05-02-00055)
November 26, 2002
Complete
Text of Report is available in PDF format (224 kb). Copies can also be obtained
by contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This letter provides you with the results of our audit titled "Review
of Administrative Costs Claimed Under Title IV-E of the Social Security Act
by Interact Family Services of Indiana for calendar year 2000."  The
audit objective was to determine whether administrative costs claimed on the
Interact Family Services of Indiana (Interact) cost report for calendar year
(CY) 2000 were reasonable and allowable for reimbursement under the Foster Care
Program (Title IV-E of the Social Security Act).  Our audit disclosed that
the administrative expenditures reported by IYA on its CY 2000 cost report were
reasonable and allowable for reimbursement under Title IV-E of the Social Security
Act.  Therefore, we have no recommendations to report.